Audit Report




OIG-11-007
SAFETY AND SOUNDNESS: Failed Bank Review of Independent
National Bank
November 2, 2010




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                             November 2, 2010


             OIG-11-007

             MEMORANDUM FOR JOHN WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                 Jeffrey Dye /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of Independent National Bank


             This memorandum presents the results of our review of the failure of Independent
             National Bank (Independent). Independent opened in October 1988 and had a main
             office in Ocala, Florida, and three branches located in central Florida. The bank was
             a subsidiary of Independent Bancshares, Inc., a bank holding company located in
             Ocala, Florida. The Office of the Comptroller of the Currency (OCC) closed
             Independent and appointed the Federal Deposit Insurance Corporation (FDIC) as
             receiver on August 20, 2010. As of June 30, 2010, the bank had $156.2 million in
             total assets. FDIC estimated that the loss to the Deposit Insurance Fund is $23.2
             million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Independent that was limited to (1) ascertaining the
             grounds identified by OCC for appointing the FDIC as receiver and (2) determining
             whether any unusual circumstances exist that might warrant a more in-depth
             review of the loss. In performing our review we (1) examined documentation
             related to the appointment of FDIC as receiver and (2) interviewed OCC personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-007
Page 2


Causes of Independent’s Failure
The primary cause of Independent’s failure was the pursuit of growth without the
development of adequate risk management and credit administration practices. For
example, Independent’s credit culture was such that lending decisions were based
more on personal relationships than the borrowers’ demonstrated ability to repay. In
addition, the processes for the on-going monitoring and analysis of a borrower’s
financial condition and collateral were deficient, as was the problem loan identification
process. These weaknesses resulted in a portfolio of poorly underwritten and managed
loans significantly concentrated in Florida commercial real estate. When confronted
with a downturn in the commercial real estate market, Independent suffered
diminished earnings and capital and, ultimately, failure.

Conclusion
Based on our review of the causes of Independent’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated that it agreed with our conclusion as to the causes of
Independent’s failure and that it had no concerns with our determination that an in-
depth review of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or James
Lisle, Audit Manager, at (202) 927-6345.

Attachments
         OIG-11-007

       Attachment 1
Management Response
                                                   OIG-11-007

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
